                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL               !

                                                OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM
                                                                                                                 -


Case Number: 102100025/Case closeout                                                      Page 1 of 1



      This case was opened based on the results of an A-133 audit. The audit report revealed that a
      University grant administrator 'embezzled $79,220 of federal funds. During the time of the
      audit, the University had six National Science Foundation (NSF) grants totaling $890,745.00.
      The A-133 audit revealed that $3,480.00 of the embezzled funds were related to NSF funds. The
      University acknowledged that the grant administrator fraudulently produced invoices for
      nonexistent goods and services that were charged to various grants and also developed a
      corrective action plan to prevent future occurrences.

      NSFIOIG requested that the University provide answers to various issues includind any
      notifications made to NSF in this case, and the reasons for not notif4ringNSF timely. The
      University provided a copy of a letter in which they characterized the intentional act of
      embezzlement as an "administrative error." NSFIOIG advised the University that the
      characterization of an intentional act of embezzlement as an "administrative error" was
      misleading. They advised that the University was trying to make the notifications as soon as
      possible, but felt that calling the errors "irregularities" was not prudent at that time.

      The grant administrator was suspended and pled guilty to one count of mail fraud. S h e was
      sentenced to 18 months in prison, 3 years of supervised release, and ordered to make restitution.
      Based on the grant administrator's conviction, we recommended this individual for debarment.

      The Office of the Deputy Director sent a certified letter to the former grant administrator
      proposing debarment. The Office of the Deputy Director advised that they had not received any
      comments from the individual within the allotted time. ~hetgfore,the Office of the Deputy
      Director would move to debar this individual.

      Accordingly, this case is closed.




      ' Footnote Redacted
                        Investigator            Attorney                Supervisor                   AIGI

  Sign / date

                                                                                       NSF OIG Form 2 (1 1/02)
